CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief Amici Curiae
of the Ethics and Religious Liberty of the Southern Baptist Convention, et al., supporting the
Petitioners’ Petition for a Writ of Certiorari in No. 20-569, Elim Romanian Pentecostal Church,
et al. v. Pritzer, contains 2,191 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
November 30, 2020
/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

